IN THE SUPREME COURT OF THE UNITED STATES

ROBERT BARNES, )
) On Petition for Writ of
vs. ) Certiorari to the Missouri
) Supreme Court
BILL STANGE, )
)
Respondent. ry
PROOF OF SERVICE

Lhereby certify that on August 14, 2020, in compliance with Supreme Court
Rule 29.3, I served a copy of the following documents upon counsel for the
respondent: Petition for Writ of Certiorari to the Missouri Supreme Court; and
Proof of Service.

Such service was obtained by mailing documents via first class mail with
postage fully prepaid and properly affixed thereto at Clayton, Missouri, addressed
to:

Eric Schmitt
Attorney General
Office of the Missouri Attorney General

PO Box 899
Jefferson City, MO 65102

wf
Dated this 14" day of July, 2020.

 

 

(Counsel of Record)

Law and Schriener, LLC

141 North Meramec Avenue, Suite 314
Clayton, Missouri 63105

(314) 721-7095 — telephone

(314) 863-7096 — facsimile

kschriener@schrienerlaw.com

Counsel for Petitioner
